FDIC Office of Inspector General Press Release: Real Housewives of New Jersey' Stars Sentenced to Prison for Conspiracy, Bankruptcy Fraud and Tax Offenses
United States Department of Justice
United States Attorney's OfficeDistrict of New Jersey
FOR IMMEDIATE RELEASE
October 2, 2014
Real Housewives of New Jersey' Stars Sentenced to Prison for Conspiracy, Bankruptcy Fraud and Tax Offenses
Forty-one Months for Giuseppe Giudice, 15 Months for Teresa Giudice
NEWARK, N.J. â Two of the stars of the television show "The Real Housewives of New Jersey" were sentenced today to prison terms for committing a string of crimes as part of a long-running financial fraud conspiracy, U.S. Attorney Paul J. Fishman announced.
Teresa Giudice, 42, and her husband, Giuseppe "Joe" Giudice, 44, both of Towaco, New Jersey, were sentenced to 15 months and 41 months in prison, respectively. Both defendants previously pleaded guilty before U.S. District Judge Esther Salas in Newark federal court to several counts of the superseding indictment returned against them in July 2013. The Giudices each pleaded guilty to one count of conspiracy to commit mail and wire fraud, one count of bankruptcy fraud by concealment of assets, one count of bankruptcy fraud by false oaths, and one count of bankruptcy fraud by false declarations. Giuseppe Giudice also pleaded guilty to one count of failure to file a tax return. Judge Salas also imposed the sentences today.
Judge Salas ordered Teresa Giudice to report to the Bureau of Prisons on Jan. 5, 2015, to begin serving her sentence. Giuseppe Giudice will report to serve his sentence after his wife finishes serving her prison term.
"The Giudices together deceived financial institutions with patently false loan applications; were dishonest when they sought the protection of the bankruptcy court and hid assets and income from the trustee; and Giuseppe Giudice cheated the government by failing to pay taxes on years of significant income," U.S. Attorney Fishman said. "When they pleaded guilty, both admitted swearing to statements they knew were lies. Prison is the appropriate penalty for these serious financial crimes."
"The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General is pleased to join the U.S. Attorney's Office and our law enforcement partners in this final phase of the prosecution," Fred W. Gibson, FDIC's Principal Deputy Inspector General, said. "Today's sentences highlight the seriousness of offenses that undermine the integrity of the financial services industry. We are committed in our efforts to uncover such fraudulent schemes that cause harm to FDIC-insured institutions and to the Nation's housing industry."
"Reality hit home today for Giuseppe and Teresa Giudice," Jonathan D. Larsen, Acting Special Agent in Charge, IRS-Criminal Investigation, Newark Field office, said. "They are now both convicted felons with prison sentences to serve. Choosing lies over the truth when dealing with the IRS, banks, and the bankruptcy court will not be tolerated."
"Concealing assets and lying in a bankruptcy case are crimes, deserving of punishment," Roberta A. DeAngelis, U.S. Trustee for Delaware, New Jersey and Pennsylvania (Region 3), said. "The Giudices remain responsible for paying their debts. They lost the protection our bankruptcy laws afford debtors because they broke the law to obtain it."
According to documents filed in this case and statements made in court:
From September 2001 through September 2008, Giuseppe and Teresa Giudice engaged in a mail and wire fraud conspiracy in which they submitted fraudulent applications and supporting documents to lenders in order to obtain mortgages and other loans. The Giudices falsely represented on loan applications and supporting documents that they were employed and/or receiving substantial salaries when they were either not employed or not receiving such salaries.
In September 2001, Teresa Giudice applied for a $121,500 mortgage loan for which she submitted a loan application falsely claiming she was employed as an executive assistant. She also submitted fake W-2 forms and fake pay stubs purportedly issued by her employer. For a $361,250 mortgage loan that Teresa Giudice obtained in July 2005, she and Giuseppe Giudice prepared a loan application which falsely stated she was employed as a realtor and that she made a monthly salary of $15,000. In fact, Teresa Giudice was not employed at the time.
On Oct. 29, 2009, they filed a petition for individual Chapter 7 bankruptcy protection in U.S. Bankruptcy Court in Newark. Over the next few months, they filed several amendments to the bankruptcy petition. As part of the bankruptcy filings, the Giudices were required to disclose to the United States Trustee their assets, liabilities, income and any anticipated increase in income. The Giudices intentionally concealed businesses they owned, income they received from a rental property, and Teresa Giudice's true income from the television show "The Real Housewives of New Jersey," website sales, and personal and magazine appearances. The Giudices concealed their anticipated increase in income from the then-upcoming second season of the show. They also testified falsely under oath in bankruptcy proceedings when questioned about their assets and income.
Giuseppe Giudice also admitted that during tax years 2004 through 2008, he received income totaling $996,459 but did not file tax returns for those years.
In addition to the prison terms, Judge Salas sentenced Giuseppe and Teresa Giudice each to two years of supervised release, and ordered the couple to forfeit $414,588. Additionally, the judge fined Giuseppe Giudice $10,000 and fined Teresa Giudice $8,000.
Giuseppe Giudice was advised by the court that he faces deportation after serving his sentence. That decision will be made by U.S. Immigrations and Customs Enforcement following completion of his prison sentence.
U.S. Attorney Fishman credited special agents of the FDIC-OIG New York, under the direction of Principal Deputy Inspector General Gibson; special agents of IRS-Criminal Investigation, under the direction of Acting Special Agent in Charge Larsen; and Region 3 U.S. Trustee DeAngelis and the Newark office of the U.S. Trustee, with the investigation.
The government is represented by Assistant U.S. Attorney Jonathan W. Romankow of the U.S. Attorney's Office Criminal Division, and Counsel to the U.S. Attorney Rachael A. Honig, in Newark.
14-356
Defense counsel:
Teresa Giudice: Henry E. Klingeman Esq., Newark
Giuseppe Giudice: Miles Feinstein Esq., Clifton, N.J.
####